      Department of Homeland Security



       Federal Emergency Management Agency’s
    Management Letter for FY 2012 DHS Consolidated
               Financial Statements Audit




OIG-13-75                                      April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


   
                                      APR 10 2013 
 
MEMORANDUM FOR:	             Edward Johnson 
                             Chief Financial Officer 
                             Federal Emergency Management Agency 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                     Federal Emergency Management Agency’s Management 
                              Letter for FY 2012 DHS Consolidated Financial Statements 
                              Audit 
                               
Attached for your information is our final report, Federal Emergency Management 
Agency’s Management Letter for FY 2012 DHS Consolidated Financial Statements Audit.  
This report contains observations related to internal control deficiencies that were not 
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial 
Statements and Internal Control over Financial Reporting.  Internal control deficiencies 
that are considered significant deficiencies were reported, as required, in the 
Independent Auditors’ Report, dated November 14, 2012, which was included in the  
DHS FY 2012 Annual Financial Report.  We do not require management’s response to 
the recommendations.   
 
The independent public accounting firm KPMG LLP conducted the audit of DHS’  
FY 2012 financial statements and is responsible for the attached management letter 
dated March 12, 2013, and conclusions expressed in it.  We do not express opinions on 
DHS’ financial statements or internal control, nor do we provide conclusions on 
compliance with laws and regulations.   
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
                               




 
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Federal Emergency Management Agency (FEMA)
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the
FY 2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.

The Federal Emergency Management Agency (FEMA) is a component of DHS. We noted certain matters,
related to FEMA, that are summarized in the Table of Financial Management Comments on the following
pages, involving internal control and other operational matters that are less severe than a material weakness
or a significant deficiency, and consequently are reported separately to the Office of Inspector General
(OIG) and FEMA management in this letter. These comments and recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. The disposition of each internal control deficiency identified during
our FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in
Appendix A. The status of internal control deficiencies identified during our FY 2011 audit is presented in
Appendix B. Our findings related to information technology systems security have been presented in a
separate letter to the OIG and the FEMA Chief Information Officer and Chief Financial Officer.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and FEMA’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.

Very truly yours,
                               Federal Emergency Management Agency
                              Table of Financial Management Comments
                                         September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

 Comment

 Reference    
Subject                                                                            Page

FMC 12-01
    Inability to Link Systems to Significant Grant Programs                              2

FMC 12-02 
   Ineffective Design of Controls Related to Grant Activities                           2

FMC 12-03 
   Ineffective Design of Controls Related to Intragovernmental Activities               3

FMC 12-04 
   Internal Control Deficiencies Identified over Claims Paid at Selected Insurance      3

              Companies that Participate in Federal Emergency Management Agency’s (FEMA)

              National Flood Insurance Program (NFIP) 

FMC 12-05 
   Deficiencies Identified over Premiums Written by FEMA’s NFIP                         4

FMC 12-06 
   Ineffective Controls over Procurement Payments and Monitoring Efforts                5

FMC 12-07 
   Ineffective Controls over Procurement and Non-Compliance with Federal                5

              Acquisition Regulation

FMC 12-08 
   Deficiencies in the Monthly Budget Execution Reviews                                 6

FMC 12-09 
   Deficiencies Identified in the Integrated Financial Management Information System    6

              Chart of Accounts and Transaction Codes 

FMC 12-10 
   Deficiencies in the Preparation and Review of the Government Accountability          7

              Office (GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting 

FMC 12-11 
   Deficiencies in the Development of Mission Assignment Policies and Procedures        7

FMC 12-12 
   Inadequate Documentation Related to Payroll Processing and Lack of Formal            8

              Policies and Procedures 

FMC 12-13 
   Ineffective Monitoring of Internal Controls via the Internal Control Board          9

FMC 12-14 
   Lack of Documentation Related to the Contingent Legal Liabilities Review            9

FMC 12-15
    Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance            10

              Companies that Participate in FEMA’s NFIP

FMC 12-16
    Issues Identified in Journal Voucher Testwork                                       10

FMC 12-17
    Non-Compliance with the Prompt Payment Act                                          11

FMC 12-18
    Lack of Communication to Employees Regarding the Department of Homeland             12

              Security Office of Inspector General Hotline and the Code of Conduct

FMC 12-19
    General Office of Chief Procurement Officer Lack of Responsiveness and Process       12

              Knowledge

FMC 12-20
    Inability to Closeout Assistance to Firefighter Grants                               13

FMC 12-21
    Deficiencies in the Monitoring of Staffing Requirements                              13

FMC 12-22
    Improvements Needed in Management’s Review of the Legacy Preparedness                13

              Accrual Model 

FMC 12-23
    Untimely Reduction of Invalid Unfilled Customer Orders (UCOs)                        15

FMC 12-24
    Improvements Needed in Management’s Review of the Acceptable Variance Range          15

              for the SmartLink Accrual Model 

FMC 12-25
    Deficiencies in the Methodology and Controls Related to the Non-Grant, Non-          16

              Intragovernmental Accounts Payable Accrual

FMC 12-26
    Deficiency Identified Related to the Preparation and Review of the Retrospective     16

              Review Analysis

FMC 12-27
    Deficiencies in the Verification and Collection of Required Supplementary            17

              Stewardship Information and Performance Measurement Data for the Annual

              Financial Report’s Management’s Discussion and Analysis


APPENDIX

 Appendix     Subject                                                                             Page

     A        Crosswalk – Financial Management Comments to Active Notices of Finding and           18

              Recommendation (NFRs)

     B        Status of Prior Year NFRs                                                            21




                                                    1

                                Federal Emergency Management Agency
                                   Financial Management Comments
                                          September 30, 2012


FMC 12-01 – Inability to Link Systems to Significant Grant Programs (NFR No. FEMA 12-01)

       We requested that Federal Emergency Management Agency (FEMA) provide an analysis to
       demonstrate the amount of undelivered orders (UDOs) flowing through each grant system during
       FY 2012. We asked that the analysis include Catalog of Federal Domestic Assistance Number,
       Grant Program, Responsible Directorate, Award System, Monitoring System, Grant Identifier,
       Obligation System, Obligation Amount, Payment System, Payment Amount, and the UDO
       reconciled balance.

       We noted that a spreadsheet was created based on our request; however, FEMA was unable to
       identify the appropriate monitoring system for each grant program. Additionally, FEMA does not
       maintain a database that links grant systems to significant grant programs to facilitate the
       assessment of system-based controls over obligations and payments related to these programs.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement a monitoring control to ensure that the currently developed
          spreadsheet is updated when necessary.
       �	 Implement a process to monitor which grant programs are flowing through which grant
          systems in order to facilitate the assessment of system-based controls over obligations and
          payments related to these programs.

FMC 12-02 – Ineffective Design of Controls Related to Grant Activities (NFR No. 12-05)

       Based on control testwork performed over the Payment and Reporting System (PARS) to
       Integrated Financial Management Information System (IFMIS) reconciliation, we noted that the
       control is not properly designed. Instead of ensuring that all transactions from PARS reconcile to
       IFMIS, FEMA has designed the control to only follow up on system-generated exceptions.
       FEMA has not verified that the system-generated exception list is complete and accurate.
       Therefore, the reconciliation currently performed does not ensure that the PARS transactions
       which were accepted by IFMIS were properly posted and all transactions within PARS were
       uploaded.

       Based on control testwork performed over the March 31, 2012, grant accrual review checklists,
       we noted several "prepared by" and "reviewed by" boxes had not been signed by the appropriate
       individuals.

       Recommendations:
       We recommend that FEMA:
       �	 Enhance current PARS to IFMIS reconciliation procedures to ensure they are performed at a
          sufficiently detailed level to identify and correct any errors in data transfer activities between
          the systems.
       �	 Reinforce with FEMA staff the control points established within the quarterly grant accrual
          checklist to ensure all control activities were completed in the quarterly process.




                                                     2

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-03 – Ineffective Design of Controls Related to Intragovernmental Activities (NFR No.
FEMA 12-06)

       Based on control testwork performed over the Federal Transit Administration (FTA) advance, we
       noted the Contracting Officer’s Technical Representative (COTR) did not review the FTA
       expenditures as of December 31, 2011, or March 31, 2012, prior to them being recorded in
       IFMIS.

       Recommendation:
       We recommend that FEMA develop and implement a process to ensure timely COTR review and
       approval of FTA expenditures related to advance liquidation.

FMC 12-04 – Internal Control Deficiencies Identified over Claims Paid at Selected Insurance
Companies that Participate in FEMA’s National Flood Insurance Program (NFIP) (NFR Nos.
FEMA 12-07 and FEMA 12-07a)

       We selected nine insurance companies and tested a sample of 263 claim payments across those
       companies covering October 1, 2011 to March 31, 2012. During this testing, we noted the
       following errors at the insurance companies:
       �	 For one sample item, the date of loss was incorrectly reported.
       �	 For five sample items, a 60-day Proof of Loss waiver was not requested.
       �	 For two sample items, a 60-day Proof of Loss waiver was requested subsequent to payment.
       �	 For one sample item, the Proof of Loss modification letter was not issued in a timely manner.

       For the nine insurance companies previously selected, we tested a sample of 126 claim payments
       across those companies covering April 1, 2012 to June 30, 2012. During this testing, we noted
       the following errors at the insurance companies:
       �	 For one sample items, a 60-day Proof of Loss waiver was not requested.
       �	 For one sample item, a 60-day Proof of Loss waiver referenced an incorrect claim.
       �	 For two sample items, the claim amount paid did not agree to the final report.
       �	 For two sample items, the claim loss date reported did not match the claim loss date in the
           claim file.

       For the nine insurance companies previously selected, we tested a sample of 45 claim payments
       across those companies covering July 1, 2012 to August 31, 2012. During this testing, we noted
       the following error at the insurance companies:
       �	 For one sample item, the claim paid amount did not agree to the final report.

       Recommendations:
       We recommend that FEMA:
       �	 Follow up with each of the insurance companies to determine that appropriate corrective
          action has been implemented to address the exceptions noted.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure
          claims files are being processed and reviewed in accordance with NFIP guidelines before
          approval and issuance of claim payments.




                                                  3

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-05 – Deficiencies Identified over Premiums Written by FEMA’s NFIP (NFR Nos. FEMA
12-09 and FEMA-12-09a)

      We tested a total of 296 written premium transactions during the period October 1, 2011 to March
      31, 2012, which included the following: (a) a sample of 270 written premium transactions across
      nine insurance companies for internal control testwork and (b) a sample of 26 written premium
      transactions across 13 insurance companies for substantive testwork. We noted the following
      items:
      �	 For one sample item, we noted the policy was not reviewed and approved by an underwriter
          in a timely manner.
      �	 For eight sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      �	 For one sample item, we noted that the designated flood zone per the policy declaration page
          did not agree to the FEMA flood maps for the insured property address; however, per the
          NFIP Flood Insurance Manual, the premium amount was not affected by the incorrect zone.

      We tested a total of 142 written premium transactions during the period April 1, 2012 to June 30,
      2012, which included the following: (a) a sample of 135 written premium transactions across nine
      insurance companies for internal control testwork and (b) a sample of 7 written premium
      transactions across 7 insurance companies for substantive testwork. We noted the following
      items:
      �	 For one sample item, we noted the policy was not reviewed and approved by an underwriter
          in a timely manner.
      �	 For three sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      �	 For four sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address; however, per
          the NFIP Flood Insurance Manual, the premium amount was not affected by the incorrect
          zone.
      �	 For one sample item, we noted that the insured property address information provided on the
          policy declaration page was insufficient to determine the correct flood zone.

      We tested a total of 58 written premium transactions during the period July 1, 2012 to August 31,
      2012, which included the following: (a) a sample of 45 written premium transactions across nine
      insurance companies for internal control testwork and (b) a sample of 13 written premium
      transactions across 13 insurance companies for substantive testwork. We noted the following
      items:
      �	 For three sample items, we noted that the designated flood zone per the policy declaration
          page did not agree to the FEMA flood maps for the insured property address. Based on the
          incorrect flood zone used, we noted that the policy premium was calculated incorrectly.
      �	 For one sample item, we noted that the insured property address information provided on the
          policy declaration page was insufficient to determine the correct flood zone.
      �	 For one sample item, we noted that the premium was calculated using the incorrect elevation
          information on the elevation certificate.




                                                  4

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


       Recommendations:
       We recommend that FEMA:
       �	 Follow up with each of the insurance companies noted above to determine that they have
          implemented the appropriate corrective action to address the exceptions identified.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure they
          process and review underwriting files in accordance with NFIP guidelines.
       �	 Revise the NFIP Flood Insurance Manual to require that all flood zones included in
          insurance policy applications are subject to verification by an underwriter through the use of
          risk-based sampling techniques.

FMC 12-06 – Ineffective Controls over Procurement Payments and Monitoring Efforts (NFR No.
FEMA 12-10a)

       Payments:
       �	 Based on our control testwork performed over a sample of 30 vendor payments for the three-
          month period ended June 30, 2012, we noted that for 1 of the 30 transactions selected, no
          receiving report was completed.
       �	 Based on our control testwork performed over a sample of 30 disaster travel payments for the
          three-month period ended June 30, 2012, we noted that for 1 of the 30 transactions selected,
          the payment was not properly approved and certified for payment prior to being recorded in
          the IFMIS.

       Monitoring Efforts:
       �	 Based on our control testwork performed over a sample of 25 UDOs with a balance at June
          30, 2012, we noted that for 1 of the 25 UDOs selected, the program contact had indicated as
          of the March 31, 2012, UDO quarterly review that the balance could be de-obligated. As of
          June 30, 2012, the balance still remained open.

       Recommendations:
       We recommend that FEMA:
       �	 Develop a monitoring control to ensure proper adherence to existing policies regarding the
          review and approval of obligations and related expenditures.
       �	 Develop a monitoring control to ensure proper adherence to existing document retention
          policies and procedures for expenses.
       �	 Execute updates to UDO balances within 30 days of receipt of responses to the quarterly
          review and annual validation of UDOs.

FMC 12-07 – Ineffective Controls over Procurement and Non-Compliance with Federal Acquisition
Regulation (NFR No. FEMA 12-10b)

       Based on our control and compliance testwork performed over a sample of six contracts for the
       three-month period from July 1, 2012 – September 30, 2012, we noted the following exceptions:
       �	 For two of the six contracts tested, the contract file checklist associated with the related
           contract was not provided.
       �	 For one of the six contracts tested, only the closeout documentation was provided to support
           the sample.
       �	 For one of the six contracts tested, the contract provided was not signed by the contractor.



                                                   5

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


       Recommendation:
       We recommend that FEMA develop and implement a monitoring program to ensure FEMA
       complies with all aspects of the Federal Acquisition Regulation and any controls implemented
       (i.e. contract file checklist) to aid in determining compliance with the Federal Acquisition
       Regulation.

FMC 12-08 – Deficiencies in the Monthly Budget Execution Reviews (NFR No. FEMA 12-11)

       In July 2011, FEMA management implemented the use of the RM Online system to produce
       monthly budget execution reports based on approved spend plans and expenditure data extracted
       directly from the IFMIS data warehouse. Based on our walkthrough and inquiries, we noted that
       the RM Online system had not been consistently used during FY 2012 to compare spend plans to
       actual expenditure data. To mitigate deficiencies in the RM Online system, Budget Planning and
       Analysis Division personnel manually modified the reports generated by the system to perform
       monthly budget execution reviews; however, no documented controls existed over the preparation
       and review of these manual budget execution reports.

       Recommendation:
       We continue to recommend that FEMA revise standard operating procedures, including
       appropriate internal controls, over the preparation and review of monthly budget execution
       reports to ensure that: (1) a consistent process is established and implemented to monitor budget
       execution; (2) the information systems used for monitoring budget execution are aligned with
       FEMA’s business processes; and (3) proper review of the monthly budget execution reports are
       performed prior to posting on FEMA’s intranet.

FMC 12-09 – Deficiencies Identified in the Integrated Financial Management Information System
Chart of Accounts and Transaction Codes (NFR Nos. FEMA 12-12 and FEMA 12-12a)

      Based on our review of FEMA’s FY 2012 IFMIS chart of accounts as of June 30, 2012, we noted
      the following exceptions:
       �	 Ten accounts listed in the IFMIS chart of accounts were not listed within the 2012 United
           States Standard General Ledger (USSGL) Chart of Accounts.
       �	 Four accounts were incorrectly labeled in the IFMIS chart of accounts, when compared to the
           2012 USSGL Chart of Accounts.
       �	 Four accounts were mapped incorrectly or listed under the wrong primary account in the
           IFMIS chart of accounts, when compared to the 2012 USSGL Chart of Accounts.
       �	 Two accounts that were not included in the 2012 USSGL Chart of Accounts were marked as
           removed, but still existed within the IFMIS chart of accounts.

      Based on our testwork performed over a sample of 24 transaction code numbers and 75 total
      transaction code transactions as of June 30, 2012, we identified that 17 transaction code
      transactions were not in compliance with the USSGL.

      Based on our testwork performed over a sample of six transaction code numbers and 23 total
      transaction code transactions as of September 30, 2012, we identified that eight of the 23 total
      transaction code transactions selected for testwork were not in compliance with the USSGL.




                                                   6

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


      Recommendations:
      We recommend that FEMA:
      �	 Develop and implement a monitoring process to periodically review the IFMIS chart of
         accounts to ensure it is in compliance with the USSGL.
      �	 If prior year accounts are necessary to post beginning balances, develop and implement
         procedures to ensure accounts are deactivated timely once beginning balances are recorded.
      �	 Develop a comprehensive transaction code crosswalk to determine whether IFMIS transaction
         codes are in compliance with the USSGL and why some transaction codes deviate from the
         USSGL.
      �	 Review Standard Operating Procedures (SOP) 2600-004 to ensure the SOP properly addresses
         compliance with the USSGL, and update as necessary.

FMC 12-10 – Deficiencies in the Preparation and Review of the Government Accountability Office
(GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting (NFR No. FEMA 12-14)

       Upon independent review of FEMA’s initial Checklist as of March 31, 2012, we determined
       FEMA did not properly complete all questions in the Checklist, as follows:
       �	 Responses to five questions which provided options for accounting methods included one
          response and did not indicate which option was applicable.
       �	 Eleven explanations provided in the Checklist required more information per the Checklist
          instructions.
       �	 Responses to four questions were not consistent with the accounting policies and operations
          currently implemented at FEMA.

      Although the Checklist was reviewed for completeness, accuracy, and validity and approved by
      FEMA management in accordance with the FY 2012 DHS Office of Financial Management
      (OFM) Component Requirements Guide for Financial Reporting, inconsistencies in the Checklist
      noted were not identified by the review.

       Recommendation:
       We recommend that the FEMA Office of Chief Financial Officer (OCFO) develop and
       implement standard operating procedures over the annual preparation and review of the GAO
       Financial Audit Manual 2010 – Checklist for Federal Accounting.

FMC 12-11 – Deficiencies in the Development of Mission Assignment Policies and Procedures (NFR
No. FEMA 12-15)

       Under SOP Number 2600-007, Financial Processing of Mission Assignments, dated March 20,
       2012, FEMA requires mission assignment-related UDO balances to be validated annually as of
       June 30 of each year. Per Section 4-5 III. B of the SOP:

               “FEMA Finance Center Integrated Planning System retains copies of all validation
               correspondence with the Other Federal Agencies (OFAs) and Recovery Offices in the
               respective mission assignment file. FEMA Finance Center Integrated Planning System
               reviews OFA responses and follows up with OFAs as needed. If an OFA has not
               provided validation or responded to the quarterly reviews and/or the annual validation
               request, FEMA, on a case- by-case basis, will follow up with the OFA to request



                                                  7

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


               validation and provide notification that continued non-response beyond the deadline will
               result in FEMA Finance Center recommendation to the mission assignment Manager to
               initiate close-out. Such correspondence is addressed to the OFA and Recovery Office.”

       However, FEMA does not designate an escalation process or closeout timeline to ensure the
       mission assignment UDO balance is validated or closed out prior to fiscal year-end.

       Recommendation:
       We recommend that FEMA develop and implement an escalation process and closeout timeline
       for instances where the OFA does not provide validation of the mission assignment in a timely
       manner.

FMC 12-12 – Inadequate Documentation Related to Payroll Processing and Lack of Formal Policies
and Procedures (NFR No. FEMA 12-17)

       Based on process walkthroughs and interim internal control testwork, we determined FEMA does
       not have policies and procedures for resolving leave error discrepancies.

       We identified a control gap related to the lack of reconciliation between payroll data submitted
       through Web Time and Attendance (WebTA) and payroll disbursements by the National Finance
       Center (NFC).

       From a sample of 45 individuals selected for leave error resolution testwork, we identified 28
       leave errors that were not corrected within one pay period. Additionally, of those 28 errors, 13
       errors were not corrected by year-end.

       From a sample of 15 new hires selected for testwork over the review and approval of Standard
       Form (SF)-52, we identified two instances in which SF-52 were not approved by the Budget
       Division. We also identified one instance in which the SF-52 was approved after the employee
       started with the agency.

       From a sample of 58 individuals selected for payroll compliance testwork, we identified the
       following instances in which FEMA was unable to provide the following supporting
       documentation:
       �	 Three Notices of Personnel Action Forms (SF-50s) – documents an employee’s pay
           grade/step, position, salary information, employment date, etc.
       �	 Three Leave and Earnings Statements – documents an employee's pay and leave status for
           each pay period.
       �	 Four WebTA records – employee’s official timesheet for the pay period.
       �	 19 Federal Employees’ Health Benefits election forms.
       �	 27 Thrift Savings Plan election forms.
       �	 22 Federal Employees’ Group Life Insurance election forms.
       �	 Any NFC screen prints for all 58 sample items.




                                                   8

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


       Recommendations:
       We recommend FEMA:
       �	 Develop, approve and implement policies and procedures for resolving leave error
          discrepancies.
       �	 Implement a control to reconcile payroll information submitted to NFC through WebTA with
          the related disbursement made by NFC.
       �	 Formalize and monitor the control over the review and resolution of leave error
          discrepancies.
       �	 Ensure all SF-52 forms are properly approved in a timely manner as required.
       �	 Maintain adequate documentation for all payroll information, including benefit elections and
          approved salary amounts.

FMC 12-13 – Ineffective Monitoring of Internal Controls via the Internal Control Board (NFR No.
FEMA 12-18)

       FEMA established the Internal Control Board to take on the responsibilities for developing and
       implementing formal processes to provide oversight of internal control assessments and
       improvements; establish a FEMA-wide accountability structure; and monitor ongoing internal
       control activities. In FY 2012, FEMA could not provide evidence indicating Internal Control
       Board meetings were held in accordance with the Internal Control Board Charter.

       Recommendation:
       We recommend FEMA hold Internal Control Board meetings in accordance with its charter, or
       revise its charter to utilize established management meetings to monitor internal controls and
       document the minutes of those meetings.

FMC 12-14 – Lack of Documentation Related to the Contingent Legal Liabilities Review (NFR No.
FEMA 12-19)

       As of June 30, 2011, Financial Statements and Reporting Branch (FSRB)-3013, Contingent Legal
       Liabilities Review and Disclosure, established an SOP over contingent legal liabilities for
       FEMA’s Office of Chief Counsel and OCFO FSRB, which is located within the Financial
       Management Division.

       In preparing these SOPs, management referred to DHS Financial Management Policy Manual
       Chapter 3.10 Legal Liabilities; DHS Delegation 0400.2, Delegation to the General Counsel, dated
       September 14, 2004; DHS Delegation to the General Counsel Regarding Claims Authority, dated
       March 9, 2007; and DHS Component Requirements Guide for Financial Reporting.

       The FSRB Chief did not document her review of the interim contingent liability information as of
       June 30, 2012, as required by the Contingent Legal Liabilities Review and Disclosure SOP.

       Recommendation:
       We recommend that FEMA document its review of the contingent legal liability accrual and
       disclosure in accordance with its written policies and procedures.




                                                  9

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-15 – Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance Companies
that Participate in FEMA’s NFIP (NFR Nos. FEMA 12-20 and FEMA 12-20a)

      We selected nine insurance companies and tested a sample of 263 claim payments and across
      those companies covering October 1, 2011 to March 31, 2012, and 65 loss reserve balance as of
      March 31, 2012, across all NFIP insurance companies. During this testing, we noted the
      following errors at the respective insurance companies:
      �	 For three sample items, the claim and related loss reserve were not closed without payment in
          a timely manner, causing reserves to be overstated.
      �	 For one sample item, the incorrect type of loss reserve related to the claim transaction was
          established.
      �	 For one sample item, the loss reserve related to the claim transaction was not updated properly
          to move reserves from Building to Contents, causing Building reserves to be overstated and
          Contents reserves to be understated.
      �	 For 29 sample items, the loss reserve related to the claim transaction was not updated properly
          to reflect claim payments or additional adjustor reports, causing reserves to be overstated or
          understated.
      �	 For one sample item, reserves were incorrectly re-established for a claim that was previously
          closed without payment, causing reserves to be overstated.
      �	 For one sample item, the loss reserve related to the claim transaction was not established for a
          supplemental payment request. Payment was not made in a timely manner, causing reserves to
          be understated.
      �	 One insurance company did not adjust loss reserves based on the final report. Additionally,
          for 20 sample items at that company, the loss reserve related to the claim transaction was not
          updated upon receipt of the final report.

      We selected nine insurance companies and tested a sample of 171 claim payments across those
      companies covering April 1, 2012 to August 31, 2012 (126 as of June 30, 2012 and 45 as of
      August 31, 2012) and 65 loss reserve balances as of August 31, 2012 across all NFIP insurance
      companies noting similar types of errors as identified through March 31, 2012.

       Recommendations:
       We recommend that FEMA:
       �	 Follow up with each of the insurance companies to determine that appropriate corrective
          action has been implemented to address the exceptions noted.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure the
          specific and consistent establishment and reporting of loss reserves and subsequent
          adjustments to the loss reserves.

FMC 12-16 – Issues Identified in Journal Voucher Testwork (NFR Nos. FEMA 12-23 and FEMA
12-23a)

       Based on our journal voucher (JV) testwork as of March 31, 2012, we noted that for 1 of 51 JV
       sample items the vendor code per the hard copy JV did not agree to the transaction posted in
       IFMIS. The entry recorded in IFMIS was correct; however, the hard copy JV did not properly
       reflect the correct attributes indicating the hard copy JV document was not properly reviewed and
       approved.



                                                  10 

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


      We noted 7 of 51 JV sample items were corrections of previous JVs that would not have been
      necessary if the original entry was properly reviewed and approved to determine if the budget
      object classification code (BOC) was proper.

      Based on our JV testwork as of June 30, 2012, we noted that for 1 of 40 JV sample items the
      original entry was recorded in the reverse order. The incorrect entry required a correcting entry
      to properly post the transaction. The entry should have been reviewed to ensure proper posting
      logic prior to the entry being recorded in IFMIS.

      We noted for 1 of 40 JV sample items, the amount per the hard copy JV did not agree to the
      transaction posted in IFMIS. The incorrect amount indicates the hard copy JV was not properly
      reconciled to the posting in IFMIS prior to being reviewed and approved.

      We noted for 2 of 40 JV sample items, the entries posted did not support FEMA’s intended
      underlying transaction. The entries improperly impacted the Statement of Budgetary Resources.
      As the entries were only intended to reclassify attributes, and not impact account balances, the
      entries were improper and should not have been recorded. The incorrect entries required
      additional entries to post the correct activity and correct the balances.

      We noted 1 of 40 JV sample items should not have been recorded as the correct entry was already
      recorded via another JV, causing this JV to be unnecessary. The incorrect entry required an
      additional entry to reverse the improper effect.

      Based on our JV testwork as of September 30, 2012, we noted that for 1 of 37 JV sample items
      the hard copy JV did not agree to the transaction posted in IFMIS. The hard copy JV indicated
      the JV should be set up to auto reverse and the JV was not set to auto reverse in IFMIS.
      Therefore, the entry recorded in IFMIS did not properly reflect the hard copy JV document that
      was reviewed and approved.

      We noted 4 of 37 JV sample items were not in full compliance with the USSGL and additional
      USSGL guidance included in the Guide for Basic Accounting Reporting for Direct Loan
      Programs without Collateral in Federal Credit Program.

      Recommendation:
      We recommend that FEMA dedicate sufficient resources to ensure JVs are timely and thoroughly
      researched, reviewed, and approved prior to entering them into IFMIS. Proper review should
      include determining that the correct BOCs and USSGL accounts are used in the JVs.

FMC 12-17 – Non-Compliance with the Prompt Payment Act (NFR No. FEMA 12-24)

      Based on our testwork performed over a sample of 78 vendor payments made during FY 2012,
      we noted that four of the payments were not made within the required time period (within 30 days
      of the receipt of the invoice or acceptance of goods) and FEMA did not pay the required interest
      penalty for the late payments.




                                                  11 

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


       Recommendations:
       We recommend that FEMA:
       �	 Develop a monitoring control to ensure adherence to existing Prompt Payment policies and
          procedures for all applicable payment activities, and
       �	 Provide additional training to ensure invoices are entered into IFMIS timely and the payment
          due date is entered correctly.

FMC 12-18 – Lack of Communication to Employees Regarding the Department of Homeland
Security Office of Inspector General Hotline and the Code of Conduct (NFR No. FEMA 12-25)

       Based on testwork conducted over a sample of 15 employees as to whether they were aware of
       the DHS/FEMA Code of Conduct and knew how to access the DHS/FEMA Code of Conduct, we
       noted one employee did not provide a response to our question.

       Additionally, based on testwork performed over a sample of 15 FEMA employees questioned as
       to whether they were aware of the DHS Office of Inspector General Hotline, we noted one
       employee did not provide a response to our question.

       Recommendation:
       We recommend that FEMA management improve communications to their employees regarding
       the existence of the DHS Office of Inspector General Hotline and the FEMA Code of Conduct,
       their importance, and the situations in which the hotline should be used.

FMC 12-19 – General Office of Chief Procurement Officer Lack of Responsiveness and Process
Knowledge (NFR No. FEMA 12-26)

       Contract File Maintenance:
       During our testwork over vendor contract obligations as of March 31, 2012, we requested
       complete contract files for each selected sample. We noted that the Office of Chief Procurement
       Officer (OCPO) was unable to provide complete contracts, identify requested obligation
       documents, or identify the documents required under Federal Acquisition Regulations for various
       samples selected. Furthermore, we noted that various samples were not provided in a timely or
       efficient manner.

       General Document Availability:
       During our testwork over vendor contract validity, we requested documentation to support the
       validity, including the period of performance, for a selected sample of 168 contracts. We noted
       that OCPO was unable to provide support for the validity of the vendor contracts. As an
       alternative procedure, the FEMA Finance Center was able to provide documentation supporting
       vendor payment activity to validate the selected balances.

       General Procurement Knowledge and Personnel Accessibility:
       �	 When asked questions regarding common procurement documents, such as contracts or
          invoices, we noted that OCPO employees were not familiar with or were not knowledgeable
          of the subjects and would request that we discuss questions with other points of contact.




                                                  12 

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


       Recommendations:
       We recommend that OCPO:
       �	 Implement a uniform system of document retention and organization and set clear guidelines
          on documentation uniformity.
       �	 Implement a clear set of guidelines and responsibilities for all employees in a financial
          procurement capacity. OCPO should conduct training so employees are aware of
          responsibilities assigned to them and knowledgeable of their process areas.

FMC 12-20 – Inability to Closeout Assistance to Firefighter Grants (NFR No. FEMA 12-27)

       During our testwork performed over Assistance to Firefighter Grants (AFG), we noted that
       system closeout issues continue to exist in FY 2012. Although a manual process was
       implemented in June 2011, currently, only grant awards from FY 2002 through FY 2007 are
       being closed out manually. Continuing issues prevented closeouts related to grant awards from
       FY 2008 through FY 2010. (The award process for AFG grants takes place during the 4th quarter
       of the fiscal year; as such, FY 2011 AFG grants do not require closeout in the current fiscal year.)

       Recommendations:
       We recommend that the Grants Program Directorate:
       �	 Implement planned modifications to the AFG system that are designed to enable the closeout
          of AFG awards from FY 2008 through FY 2010.
       �	 Utilize the established manual closeout process for AFG awards prior to FY 2008 and for
          subsequent awards until the system capability exists to complete closeouts.

FMC 12-21 – Deficiencies in the Monitoring of Staffing Requirements (NFR No. FEMA 12-30)

       When reperforming the reconciliation of the OCFO staffing roster as of August 2012 with the
       OCFO organizational chart as of August 2012, we noted 21 instances in which the staffing roster
       had not been updated based on updates to the organizational chart.

      Recommendations:
      We recommend that FEMA:
      �	 Develop and implement policies and procedures to update the OCFO staffing roster timely.
          These policies and procedures should include a control to ensure the staffing roster is
          accurate and is reconciled to the organizational chart on a periodic basis.
      �	 Monitor the effectiveness of the newly developed and implemented control.

FMC 12-22 – Improvements Needed in Management’s Review of the Legacy Preparedness Accrual
Model (NFR No. FEMA 12-31)
       Our review of FEMA’s legacy preparedness grant accrual process revealed the following
       deficiencies within the process as of March 31, 2012:
       �	 Variances between estimated and actual advances and liabilities that exceed the acceptable
           variance range thresholds established by FEMA policies were not adequately addressed. The
           advance variances at September 30, 2011, and December 31, 2011, were $16.4 million and
           $(49.4) million respectively. Additionally, the liability variances at September 30, 2011, and
           December 31, 2011, were $130.8 million and $(291.3) million, respectively.



                                                   13 

                        Federal Emergency Management Agency
                           Financial Management Comments
                                  September 30, 2012


Our review of FEMA’s legacy preparedness grant accrual process revealed the following
deficiencies within the process as of September 30, 2012:
�	 The underlying drawdown data used to formulate the accrual amount was understated during
    the September 30, 2012, model application. We noted that due to a PARS system error on
    July 12, 2012, all drawdowns on that day were entered manually under one user ID and as
    such were not included in the model’s original underlying data for one user ID. The total
    drawdown omission amount, approximately $105,571,000, which had an impact of
    approximately $5 million. FEMA did not record an on-top adjustment related to the
    discrepancy.
�	 The underlying data, as confirmed with grantees, contained several discrepancies between the
    expenditures reported and those used in the accrual model. Upon review of these amounts,
    we noted that several differences were due to timing errors (between FEMA and the
    Grantee’s reporting systems). Several of the amounts, however, were discrepancies due to an
    internal PARS error. Within PARS, grantees are able to submit expenditures in the 90 day
    period following the submission of a final Federal Financial Report and date those
    expenditures to the final Federal Financial Reports. As grantees are able to report
    expenditures to prior Federal Financial Reports, the expenditure data used in the September
    30, 2012, model includes expenditures from the fourth quarter. FEMA was unable to provide
    a complete population of all expenditures reported in the fourth quarter that were back-dated
    to final Federal Financial Reports (from the 3rd quarter). As such, FEMA was unable to
    quantify the amount of the information that should have been excluded from the underlying
    model data.
�	 Variances between estimated and actual advances and liabilities that exceed the acceptable
    variance range thresholds established by FEMA policies were not adequately addressed. The
    liability variance at June 30, 2012, was $105.8 million.

Our review of FEMA’s Grants and Training grant accrual process revealed the following
deficiency within the process for the FY 2012:
�	 The management review of the acceptable variance range is only completed annually and was
    not completed for FY 2012.

Recommendations:
We recommend that FEMA management:
�	 Conduct training to ensure that the individuals responsible for preparing and reviewing the
   grant accrual clearly understand their roles and responsibilities for the preparation and review
   of the grant accruals.
�	 Review and resolve, and document the resolution of large variances between estimated and
   actual advances and liabilities, including assessing the reasonableness of the estimation
   methodology.
�	 Conduct training to ensure grantees understand the SF-425 form and complete it properly.




                                            14 

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-23 – Untimely Reduction of Invalid Unfilled Customer Orders (UCOs) (NFR No. FEMA
12-32)

      In two samples of 20 total opening UCO balances, we identified seven errors that overstated the
      opening balance by $75 million and three additional errors that understated the balance by $27
      million. In interim and final samples of 7 items and 6 items, respectively, we identified 1 error
      that overstated the ending balance by $17 million and 4 errors that overstated the balance by $54
      million.

      In each of the samples, we identified agreements with expired period of performances (POPs),
      balances unsupported by open obligations, unsupported JVs, or inaccurately recorded cash
      collections. Several of the current year exceptions were transactions that should have been
      recorded in prior years.

      Recommendation:
      We recommend that FEMA develop procedures to monitor the status of recorded UCOs to
      determine that they remain valid and accurately recorded. We further recommend that FEMA
      consider implementing management level reviews to routinely review the aging of UCOs.

FMC 12-24 – Improvements Needed in Management’s Review of the Acceptable Variance Range
for the SmartLink Accrual Model (NFR No. FEMA 12-34)

      Our review of the SmartLink grant accrual process revealed the following deficiencies within the
      process as of March 31, 2012:
      �	 A variance between estimated and actual advances that exceed the acceptable variance range
          thresholds established by FEMA policies was not adequately addressed. The advance
          variance at December 31, 2011, was $26.9 million. This discrepancy fell outside the target
          error rate for the advance estimates for the SmartLink grant accrual.

      Our review of the SmartLink grant accrual process revealed the following deficiencies within the
      process as of September 30, 2012:
      �	 Variances between estimated and actual advances and liabilities that exceed the acceptable
          variance range thresholds established by FEMA policies were not adequately addressed. The
          advance variance at March 31, 2012, was $23.1 million. Additionally, liability variances at
          June 30, 2012, and March 31, 2012, were $86.6 million and $96.1 million, respectively.
          These discrepancies fell outside the target error rate for the advance and liability estimates for
          the SmartLink grant accrual.

      Our review of the SmartLink grant accrual process revealed the following deficiency within the
      process for FY 2012.
      �	 The management review of the acceptable variance range is only completed annually and was
          not completed for FY 2012. The most recent acceptable variance range review was
          documented on December 31, 2010.

      Recommendations:
      We recommend that FEMA management:
      �	 Review, resolve, and document the resolution of large variances between estimated and
         actual advances and liabilities, including assessing the reasonableness of the estimation


                                                   15 

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2012


           methodology.
       �   Conduct training to ensure grantees understand the SF-425 form and complete it properly.

FMC 12-25 – Deficiencies in the Methodology and Controls Related to the Non-Grant, Non-
Intragovernmental Accounts Payable Accrual (NFR No. FEMA 12-37)

      Based on our review of the accounts payable accrual model methodology, an accounts payable
      accrual is not generated for the following fund codes and BOCs, and the Intergovernmental
      Accrual Process does not specifically address the accrual process for the following funds:
      �	 Fund codes 79, 87-89, 8C, 9B, and 9C (all related to limited and no-year funds for the
          Chemical Stockpile Emergency Preparedness Program)
      �	 Fund code H7 (related to State and Local Programs Fund – Public Safety Interoperable
          Communications)
      �	 BOC codes 2503 (Delegation of Authority – Disaster Unemployment Assistance) and 2504
          (Delegation of Authority – Crisis Counseling Assistance),

       During testwork performed over the September 30, 2012, accounts payable accrual, we noted that
       upon request for the reconciliation of the UDO data used to calculate the UDO constraints in the
       JV Limit tab to the general ledger (GL), FEMA noted a discrepancy of nearly $2 billion between
       the GL and the UDO data included in the model. As the UDO data used to calculate the JV Limit
       tab was understated, this resulted in an inaccurately low JV Limit, which resulted in the original
       submission of the accrual to be understated by $15 million.

       Recommendations:
       We recommend that FEMA:
       �	 Incorporate an assessment of the BOCs and funds noted above into the Quarterly Accounts
           Payable Accrual Process and document the assessment.
       �	 Adequately perform and review all steps listed on the accounts payable accrual model
           checklist to ensure inputs to the model are accurate.

FMC 12-26 – Deficiency Identified Related to the Preparation and Review of the Retrospective
Review Analysis (NFR No. FEMA 12-38)

       The December 31, 2011, retrospective review completed by the third–party contractor actuary and
       reviewed by the FEMA actuary did not include a comprehensive discussion of the large
       redundancy ($1.3 billion) of the actuarial insurance liability calculated as of September 30, 2011.

       Recommendation:
       We recommend that FEMA incorporate a comprehensive analysis of any large fluctuations noted
       in the actual to estimate comparison of the insurance liability in the retrospective review
       performed.




                                                   16 

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-27 – Deficiencies in the Verification and Collection of Required Supplementary
Stewardship Information and Performance Measurement Data for the Annual Financial Report’s
Management’s Discussion and Analysis (NFR No. FEMA 12-39)

       In the FY 2012 DHS Annual Financial Report, FEMA did not report any Required
       Supplementary Stewardship Information for Nonfederal Physical Property. However, as part of
       FEMA’s operations, grants are made to State and Local Governments for construction and
       equipment. FEMA does not currently have an official policy related to these expenditures and
       does not track the amount of such expenditures.

      In the FY 2012 DHS Annual Financial Report, information for one performance measurement
      was not provided by FEMA’s program offices.

      Recommendations:
      We recommend that FEMA:
      �	 Develop and implement policies and procedures to account for Nonfederal Physical Property
          that includes determining the proper reporting requirements and the monitoring of the
          materiality of such items.
      �	 Develop and implement a process to ensure that performance measures can be objectively
          tracked, calculated, and verified.
      �	 Develop and implement a review process to validate the data and the performance
          measurement calculations prior to submission to DHS.




                                                17 

                                                                                                    Appendix A
                              Federal Emergency Management Agency
                    Crosswalk – Financial Management Comments to Active NFRs
                                        September 30, 2012


                                                                                          Disposition1
                                                                                          IAR            FMC
NFR No.   Description                                                                MW   SD       NC    No.
12-01     Inability to Link Systems to Significant Grant Programs                                        12-01
          Ineffective Controls over Grant Obligations, De–obligations, and
12-02                                                                                     G         K
          Monitoring Efforts
12-02a    Ineffective Controls over Grant Monitoring Efforts                              G         K
          Ineffective Controls over Grants Management and Non-Compliance with
12-02b                                                                                    G
          Cash Management Improvement Act
          Non-Compliance with 5 Code of Federal Regulations (CFR) Part 2634
12-03                                                                                      F
          and 5 CFR Part 2638 Related to Ethics Requirement
          Ineffective Controls over Intragovernmental Activity Obligations,
12-04                                                                                E
          Deobligations, and Payments
12-05     Ineffective Design of Controls Related to Grants Activities                                    12-02
12-06     Ineffective Design of Controls Related to Intragovernmental Activities                         12-03
          Internal Control Deficiencies Identified over Claims Paid at Selected
12-07     Insurance Companies that Participate in FEMA’s National Flood                                  12-04
          Insurance Program (NFIP) as of March 31, 2012
          Internal Control Deficiencies Identified over Claims Paid at Selected
12-07a    Insurance Companies that Participate in FEMA’s NFIP as of August 31,                           12-04
          2012
12-08     Ineffective Controls over the Recording of Funding Transactions            E
          Deficiencies Identified over Premiums Written by FEMA’s NFIP as of
12-09                                                                                                    12-05
          March 31, 2012
          Deficiencies Identified over Premiums Written by FEMA’s NFIP as of
12-09a                                                                                                   12-05
          August 31, 2012
          Ineffective Controls over Procurement Obligations, Deobligations,
12-10     Payments, and Monitoring Efforts and Non-Compliance with Federal           E
          Acquisition Regulation (FAR)
12-10a    Ineffective Controls over Procurement Payments and Monitoring Efforts                          12-06
12-10b    Ineffective Controls over Procurement and Non-Compliance with FAR                              12-07
12-11     Deficiencies in the Monthly Budget Execution Reviews                                           12-08
          Deficiencies Identified in the Integrated Financial Management
12-12                                                                                                    12-09
          Information System Chart of Accounts and Transaction Codes
          Continued Deficiencies Identified in the Integrated Financial
12-12a    Management Information System Transaction Codes as of September 30,                            12-09
          2012
12-13     Ineffective Design of Controls Related to Monitoring Obligations           E
          Deficiencies in the Preparation and Review of the Government
12-14     Accountability Office (GAO) Financial Audit Manual 2010 – Checklist                            12-10
          for Federal Accounting
          Deficiencies in Development of Mission Assignment Policies and
12-15                                                                                                    12-11
          Procedures
12-16     Ineffective Controls over Tracking Grants Eligible for Close-out                G
          Inadequate Documentation Related to Payroll Processing and Lack of
12-17                                                                                                    12-12
          Formal Policies and Procedures
          Ineffective Monitoring of Internal Controls via the Internal Control
12-18                                                                                                    12-13
          Board
          Lack of Documentation Related to the Contingent Legal Liabilities
12-19                                                                                                    12-14
          Review
          Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance
12-20                                                                                                    12-15
          Companies that Participate in FEMA’s NFIP as of March 31, 2012




                                                         18 

                                                                                                             Appendix A
                                   Federal Emergency Management Agency
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                                MW       SD        NC        No.
              Deficiencies Identified over Claims’ Loss Reserves at Selected Insurance
12-20a                                                                                                               12-15
              Companies that Participate in FEMA’s NFIP as of August 31, 2012
              Deficiencies in the Monthly Standard Form SF-132 to SF-133
12-21                                                                                    E
              Reconciliation Process
              Budgetary Accounting Issues Identified in Journal Voucher (JV)
12-22                                                                                    E
              Testwork through June 30, 2012
12-23         Issues Identified in JV Testwork through June 30, 2012                                                 12-16
12-23a        Issues Identified in JV Testwork through September 30, 2012                                            12-16
12-24         Non-Compliance with Prompt Pay Act                                                                     12-17
              Lack of Communication to Employees Regarding the Department of
12-25         Homeland Security (DHS) Office of Inspector General Hotline and the                                    12-18
              Code of Conduct
              General Office of Chief Procurement Officer Lack of Responsiveness
12-26                                                                                                                12-19
              and Process Knowledge
12-27         Inability to Closeout Assistance to Firefighter Grants                                                 12-20
              Monitoring of Audit Findings in Accordance with Office of Management
12-28                                                                                              G
              and Budget Circular A-133
12-29         Deficiencies Related to the Public Disclosure Filing Process                         F
12-30         Deficiencies in the Monitoring of Staffing Requirements                                                12-21
              Improvements Needed in Management’s Review of the Legacy
12-31                                                                                                                12-22
              Preparedness Accrual Model
12-32         Untimely Reduction of Invalid Unfilled Customer Orders (UCOs)                                          12-23
12-33         Improper Processing of Undelivered Orders (UDOs) and Expenses              E
              Improvements Needed in Management’s Review of the Acceptable
12-34                                                                                                                12-24
              Variance Range for the SmartLink Accrual Model
12-35         Untimely De-Obligation of UDOs                                             E
12-36         Failure to Recertify Policies and Procedures in Various Areas                        F
              Deficiencies in the Methodology and Controls Related to the Non-Grant,
12-37                                                                                                                12-25
              Non-Intragovernmental Accounts Payable Accrual
              Deficiency Identified Related to the Preparation and Review of the
12-38                                                                                                                12-26
              Retrospective Review Analysis
              Deficiencies in Verification and Collection of Required Supplementary
12-39         Stewardship Information and Performance Measurement Data for the                                       12-27
              Annual Financial Report’s Management’s Discussion and Analysis
1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation




                                                             19 

                                                                                  Appendix A
                                 Federal Emergency Management Agency
                       Crosswalk – Financial Management Comments to Active NFRs
                                           September 30, 2012


Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                         20 

                                                                                                    Appendix B
                                 Federal Emergency Management Agency
                                        Status of Prior Year NFRs
                                           September 30, 2012


                                                                                           Disposition1
                                                                                           Repeat
NFR No. Description                                                              Closed2
                                                                                           (2011 NFR No.)
11-01   Insufficient Controls over Processing Mission Assignments (MAs)                    FEMA 12-04
        Deficiencies in Development and Application of Policies Related to the
11-02   Non-Grant, Non-MA, Non-System-Generated Accounts Payable (A/P)                     FEMA 12-37
        Accrual
        Non-Compliance with 5 Code of Federal Regulations (CFR) Part 2638
11-03                                                                                      FEMA 12-03
        and 5 CFR Part 2638 Related to Ethical Requirements
11-04   Inability to Closeout Assistance to Firefighter Grants                             FEMA 12-27
11-05   Deficiencies in Development of MA Policies and Procedures                          FEMA 12-15
                                                                                           FEMA 12-04, FEMA 12­
11-06   Ineffective Controls over Processing and Monitoring Obligations                    10, FEMA 12-10a, FEMA
                                                                                           12-10b, FEMA 12-13
        Incomplete Implementation of Controls over the Recording of Funding
11-07                                                                                      FEMA 12-08
        Transactions
        Lack of Certain Documentation Related to Compliance with the
11-08                                                                                 X
        Improper Payments Elimination and Recovery Act of 2010
11-09   Ineffective Controls over Tracking Grants Eligible for Closeout                    FEMA 12-16
                                                                                           FEMA 12-02, FEMA 12­
11-10   Financial Monitoring of Grants by the Grant Programs Directorate
                                                                                           02a, FEMA 12-02b
11-11   Inability to Link Systems to Significant Grant Programs                            FEMA 12-01
        Deficiencies in the Preparation and Review of the Government
11-12   Accountability Office (GAO) Financial Audit Manual 2010 – Checklist                FEMA 12-14
        for Federal Accounting (the Checklist)
        Monitoring of Audit Findings in Accordance with Office of
11-13   Management and Budget (OMB) Circular Nos. A-133 and A-50, and                      FEMA 12-28
        Related Compliance Matters
        Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies                FEMA 12-20, FEMA 12­
11-14
        that Participate in FEMA’s National Flood Insurance Program (NFIP)                 20a
        Internal Control Deficiencies over Claims Paid at Selected Insurance               FEMA 12-07, FEMA 12­
11-15
        Companies that Participate in FEMA’s NFIP                                          07a
11-16   Lack of Formal Policies and Procedures in Various Areas                            FEMA 12-36
        Deficiencies in the Monthly Spend Plan Reconciliation Preparation
11-17                                                                                      FEMA 12-11
        Process
        Deficiencies Identified in the General Ledger Chart of Accounts and                FEMA 12-12, FEMA 12­
11-18
        Transaction Codes                                                                  12a
        Improvements Needed in Review and Recording of Year-End MA
11-19                                                                                 X
        Accrual
                                                                                           FEMA 12-02, FEMA 12­
11-20   Ineffective Controls over Grants Management
                                                                                           05, FEMA 12-06
        Budgetary Accounting Issues Identified in Journal Voucher (JV)
11-21                                                                                      FEMA 12-22
        Testwork Through September 30, 2011
        Improvements Needed in Management’s Review of Grant Data and                       FEMA 12-34, FEMA 12­
11-22
        Automated Reconciliations in Grant Accrual Models                                  31
                                                                                           FEMA 12-23, FEMA 12­
11-23   Issues Identified in JV Testwork through September 30, 2011
                                                                                           23a
11-24   Compliance with the Prompt Payment Act                                             FEMA 12-24
        Improper Processing and Untimely De-Obligation of Undelivered                      FEMA 12-33, FEMA 12­
11-25
        Orders (UDOs)                                                                      35
        Deficiencies in Verification and Collection of Performance
11-26   Measurement Data for the Annual Financial Report’s Management’s                    FEMA 12-39
        Discussion and Analysis
11-27   Deficiencies in the Grant Accrual Methodology                                 X




                                                        21 

                                                                                                                   Appendix B
                                       Federal Emergency Management Agency
                                              Status of Prior Year NFRs
                                                 September 30, 2012


             Deficiencies over the NFIP Treasury Information Executive Repository
    11-28                                                                                    X
             JV Adjustments
             Lack of communication regarding the existence of the Department of
    11-29                                                                                              FEMA 12-25
             Homeland Security Office of Inspector General Fraud Hotline

1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                               22 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-75

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
